                                                                  Issue Date
                                                                      May 5, 2009
                                                                  Audit Report Number
                                                                       2009-AO- 1002




TO:        Nelson Bregon, General Deputy Assistant Secretary, D


FROM:      Rose Capalungan, Regional Inspector General for Audit, Gulf Coast Region,
             GAH


SUBJECT: State of Louisiana, Baton Rouge, Louisiana, Road Home Program, Did Not
            Ensure That Multiple Disbursements to a Single Damaged Residence Address
            Were Eligible


                                    HIGHLIGHTS

 What We Audited and Why

             Due to a citizen’s complaint, we audited the State of Louisiana’s (State) Road
             Home homeowner assistance program managed by the State’s contractor, ICF
             Emergency Management Services, LLC. The complaint raised a potential issue
             with Road Home employees improperly obtaining grants. During our audit on
             employee eligibility for additional compensation grants, we identified possible
             program eligibility issues through a review of the electronic disbursement data.
             To address the extent of the issues, we developed an additional audit objective to
             determine eligibility for multiple disbursements made to a single damaged
             residence address.


 What We Found


             We identified 69 property addresses that had two or more Road Home grants for a
             total of 139 grants. Of the 69 property addresses, 11 received total disbursements

                                              1
                                                
           that exceeded the overall grant limit of $150,000. The 11 addresses received a
           total of 22 grants. Of the 22 grants, the State funded eight (36 percent) grants,
           totaling $735,087 that were either ineligible or unsupported. This condition
           occurred because the State did not ensure that its contractor had system controls
           to identify multiple disbursements to a single property address and that its policies
           and procedures were followed when processing grants and determining eligibility
           for multiple disbursements. As a result, the State must repay funds disbursed for
           ineligible grants and support or repay funds disbursed for unsupported grants.
           Further, although disbursements did not exceed the overall grant limit of
           $150,000 for the other 58 property addresses, the State must review those 117
           grants since a portion of the disbursements may be questionable.


What We Recommend


           We recommend that HUD’s General Deputy Assistant Secretary for Community
           Planning and Development require the State to repay amounts disbursed for
           ineligible grants to its Road Home program, support or repay amounts disbursed
           for unsupported grants, and review all of the 117 grants related to multiple
           disbursements for 58 property addresses to determine eligibility.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           During the audit, we provided the results of our review to the State’s management
           staff and HUD. We conducted an exit conference with the State on April 3, 2009.

           We asked the State to provide comments on our draft audit report by April 1,
           2009. We gave the State an extension until April 16, 2009, to respond, and it
           provided written comments on that day. The State generally agreed with the
           report but disagreed with some of the conclusions and recommendations. The
           complete text of the State’s response, along with our evaluation of that response,
           can be found in appendix B of this report.




                                             2
                                              
                            TABLE OF CONTENTS

Background and Objective                                                            4

Results of Audit
      Finding 1: The State Did Not Ensure That Multiple Disbursements to a Single   6
      Damaged Residence Address Were Eligible

Scope and Methodology                                                               11

Internal Controls                                                                   12

Appendixes
   A. Schedule of Questioned Costs                                                  13
   B. Auditee Comments and OIG’s Evaluation                                         14




                                            3
                                              
                                  BACKGROUND AND OBJECTIVE


Between December 2005 and December 2007, Congress approved a total of $19.7 billion in
supplemental Community Development Block Grant (CDBG) Disaster Recovery Assistance
funds for Gulf Coast hurricane relief. Of that amount, the U.S. Department of Housing and
Urban Development (HUD) awarded $13.4 billion to the State of Louisiana (State) for its
recovery efforts.

The Disaster Recovery Unit within the State’s Division of Administration’s Office of
Community Development administers the use of the supplemental CDBG funds. The Louisiana
Recovery Authority (Authority) plans and coordinates for the recovery and rebuilding of the
State. The Disaster Recovery Unit, in conjunction with the Authority, develops action plans
outlining the programs and methods used to administer the supplemental CDBG funds.

With approval from the Louisiana legislature, the governor, the Authority, and the Disaster
Recovery Unit created the Louisiana Road Home program. The State allocated more than $9.9
billion of the $13.4 billion to the homeowner assistance program,1 which provides grants to
eligible homeowners. ICF Emergency Management Services, LLC, the State’s contractor,
manages the Road Home program. The State required its contractor to verify applicants’
eligibility and develop a management information system2 meeting State specifications and
internal control requirements. The contractor’s contract term ends on June 11, 2009, and the
homeowner assistance program is in its final stages.3

The homeowner assistance program includes four forms of available funding assistance,
dependent upon the option4 selected. The four forms of available funding assistance include the
(1) compensation grant, (2) elevation grant, (3) additional compensation grant, and (4) additional
mitigation grant. The overall grant amount cannot exceed $150,000. To be eligible for grant
assistance under the Road Home program, the State required applicants to own and occupy a
damaged property as their primary residence as of and prior to Hurricanes Katrina or Rita. The
State also required that the damaged property be

•      Located in one of 37 parishes5;
•      A single-unit structure, double-unit structure, town home, mobile home, or condominium;
•      Registered with FEMA6 individual assistance and categorized by FEMA as having major
or severe damage7

1
  The homeowner assistance program is one of four Road Home programs.
2
  The management information system principally supports the Road Home program.
3
  As of February 22, 2009, the State had determined that the final number for applicants eligible for assistance totaled 152,060. Of that amount,
144,187 applicants had chosen an option, and 140,083 applications had been completed, with 4,104 remaining.
4
  The options available were Option 1 – Applicant retained their home; Option 2 – Applicant sold their home, occupied as of the date of the
storms, but remained a homeowner in Louisiana; and Option 3 – Applicant sold their home, occupied as of the date of the storms, and either
moved from Louisiana or remained in Louisiana as a renter.
5
  Those parishes included Acadia, Allen, Ascension, Assumption, Calcasieu, Cameron, Beauregard, East Baton Rouge, East Feliciana,
Evangeline, Iberia, Iberville, Jefferson, Jefferson Davis, Lafayette, Lafourche, Livingston, Orleans, Pointe Coupee, Plaquemines, Sabine, St.
Bernard, St. Charles, St. Helena, St. James, St. John, St. Landry, St. Mary, St. Martin, St. Tammany, Tangipahoa, Terrebonne, Vermilion,
Vernon, Washington, West Baton Rouge, and West Feliciana.

                                                                        4
                                                                          
During our audit on employee eligibility for additional compensation grants, we identified
possible program eligibility issues through a review of the electronic disbursement data. To
address the extent of the issues, we developed an additional audit objective to determine
eligibility for multiple disbursements made to a single damaged residence address.

We identified 11 of 69 property addresses that had two or more Road Home grants, for which
total disbursements exceeded the overall grant limit of $150,000. Because it related to overall
eligibility for the Road Home program, we issued this report to address the issue. We plan to
issue the results of our audit regarding employee eligibility for additional compensation grant in
a separate report.




6
 Federal Emergency Management Agency
7
 If the property was not registered with FEMA and the Road Home evaluation determined that the home received at least $5,200 worth of
damage, which was caused by the one or both Hurricanes, the property met the FEMA standard.

                                                                     5
                                                                       
                                      RESULTS OF AUDIT

Finding 1: The State Did Not Ensure That Multiple Disbursements to a
Single Damaged Residence Address Were Eligible
The State did not ensure that multiple disbursements to a single property address were eligible
and/or supported. Testing disclosed 69 property addresses that had two or more8 Road Home
grants for a total of 139 grants. Of the 69 property addresses, 11 received total disbursements
that exceeded the overall grant limit of $150,000. The 11 addresses received a total of 22 grants.
Of the 22 grants, the State funded eight (36 percent) grants, totaling $735,087, that were either
ineligible or unsupported. This condition occurred because the State did not ensure that its
policies and procedures were followed when processing grants and determining eligibility for
multiple disbursements to a single property address and that its contractor had system controls to
identify multiple disbursements. As a result, the State must repay funds disbursed for ineligible
grants and support or repay funds disbursed for unsupported grants. Further, although
disbursements did not exceed the overall grant limit of $150,000 for the other 58 property
addresses, the State must review those 117 grants since a portion of the disbursements may be
questionable.




    State’s Eligibility Requirements


                 To be eligible for grant assistance under the Road Home program, the State
                 required applicants to have owned and occupied a damaged property as their
                 primary residence at the time of Hurricane Katrina or Rita.9 The State also
                 required that the damaged property be a single-unit structure, double-unit
                 structure, townhome, mobile home, or condominium. Further, total assistance per
                 single damaged residence address could not exceed $150,000, unless the address
                 had

                      •    Two different structures and two different owners who applied separately
                           or
                      •    A double-unit structure with two separate tax parcels. If the double-unit
                           structure had one tax parcel, only one applicant could apply for and
                           receive assistance for both units.



8
  Of the 69 addresses, one address received three grants. The remaining 68 addresses each received two
disbursements.
9
  Hurricane Katrina was August 29, 2005, and Hurricane Rita was September 24, 2005.

                                                        6
                                                          
$735,087 Paid for Ineligible and
Unsupported Grants



            Testing disclosed 69 damaged residence addresses that had two or more Road
            Home grants for a total of 139 grants. Of the 69 damaged residence addresses, 11
            received disbursements that exceeded the overall grant limit of $150,000, for a
            total of 22 grants. File reviews of the 22 grants determined that eight (36 percent)
            grants were either ineligible or unsupported because

                •   Two applicants did not own or occupy the property at the time of
                    Hurricane Katrina and were, therefore, ineligible;
                •   One disbursement was ineligible because funds were disbursed to two
                    separate applicants for a double-unit structure with one tax parcel;
                •   Four were processed incorrectly and, therefore, unsupported; and
                •   One lacked sufficient ownership documentation, making the grant
                    unsupported.

            As a result, as of September 18, 2008, the State had misspent $294,060 in federal
            funds for three ineligible grants and $441,027 for five unsupported grants. The
            remaining 14 grants, totaling more than $1.4 million, were eligible.

State’s Policy Not Followed

            The State’s contractor did not follow the State’s policy when determining
            eligibility for the Road Home program and processing grants for double-unit
            structures. The State’s policy required applicants to have owned and occupied the
            property at the time of Hurricane Katrina or Rita. However, based upon the file
            reviews, two applicants received grant awards for properties that they did not own
            or occupy. Further, the State’s policy allowed only one grant for double-unit
            structures with one tax parcel. In one instance, there were two owners for a
            double-unit structure with one tax parcel, who both separately applied for and
            received grants. Although both owners were eligible to receive a grant, only one
            grant should have been awarded, since the double-unit structure had one tax
            parcel.

            The State’s contractor also did not follow the State’s policy when processing
            grants for two different structures located at a single property address. When a
            property address had a single-unit structure and a mobile home on the property,
            the State’s policy required the single-unit structure to be processed as a structure
            with land and the mobile home as a structure on leased land. Three of the four
            grants that were processed incorrectly were each associated with a property


                                              7
                                                
            address that had a single-unit structure and a mobile home on the land and were
            processed as follows:

                •   Two of the grants were both processed as single-unit structures with land;
                    however, the grants should have been processed as follows: one as a
                    mobile home on leased land and the other as a single-unit structure with
                    land; and
                •   One grant, which was associated with a property that had a single-unit
                    structure and a mobile home, was processed as a single-unit structure with
                    land and a mobile home with land. In this case, the land should not have
                    been considered with the mobile home.

            The remaining grant that was processed incorrectly was associated with a
            property address that had two single-unit structures. When the contractor
            processed the grants, it processed them as single-unit structures with land, instead
            of processing one as a single-unit structure on leased land and the other as a
            single-unit structure with land.

            As a result, new prestorm values and estimated costs of damage, reflecting the
            correct structure type and land status, are required for all four grants. Based upon
            the change in prestorm values and estimated costs of damage, the grants may have
            been partially or wholly ineligible.

            Complete ownership documentation was also required. However, for one grant,
            the legal document used to support the applicant’s ownership was not signed and
            recorded as a valid legal document. The State must ensure that its contractor
            follows the established policies and procedures when processing multiple grants
            to a single damaged residence address to avoid funding additional ineligible
            and/or unsupported grants.


System Controls Not in Place


            The State’s contractor did not have system controls in place to identify multiple
            disbursements for a single damaged residence address. The State’s contractor
            stated that due to the complex process of identifying addresses with multiple grant
            disbursements, its management information system did not have a control to
            identify duplicate addresses. Those system controls might have prevented the
            ineligible and/or unsupported disbursements by allowing the contractor to
            compare applications for the same property address and, thereby, ensuring proper
            processing of the grants.




                                              8
                                               
 Additional Duplicate
 Disbursements

                    Although our review focused on multiple grants to single damaged residence
                    addresses for which the total amount disbursed was more than $150,000, we
                    identified another 58 addresses that had multiple grants, for which the total grant
                    amount disbursed was less than $150,000, for a total of 117 grants. Because the
                    State’s contractor did not have system controls in place to identify multiple
                    disbursements to a single damaged residence address and did not follow the
                    State’s policy when processing multiple disbursements for single damaged
                    residence addresses, there are potential issues associated with those 117 grants,
                    which total more than $3.9 million. All or a portion of those disbursements may
                    be questionable. Therefore, the State must review those grants to determine
                    eligibility.


     State is Taking Action


                    The State agreed10 with our results for the eight grants determined ineligible
                    and/or unsupported and had initiated a review of the additional 117 questioned
                    grants to determine eligibility. In addition, the State planned to pursue recovery
                    of grant funds for all grants determined ineligible, including the grants discussed
                    above. Further, the State had developed a recapture policy and was working in
                    conjunction with the Louisiana Attorney General’s Office to develop recapture
                    procedures and processes. The State stated its intent to turn over those grants that
                    are determined ineligible and for which the recapture of funds is warranted to the
                    Louisiana Attorney General’s Office for recapture. We acknowledge the State’s
                    actions toward reviewing the grants and grant recovery.


     Conclusion

                    Of 22 grants, the State funded three ineligible (14 percent) and five unsupported
                    (22 percent) grants. Two of the disbursements were ineligible because the
                    applicants did not own or occupy the property at the time of Hurricane Katrina.
                    Another disbursement was ineligible because there were two applicants who both
                    received disbursements for a double-unit structure that was a single tax parcel.
                    For four of the five unsupported disbursements, the applicants were not processed
                    correctly, and the remaining disbursement was unsupported because the applicant
                    did not have sufficient ownership documentation.

                    Since the State’s contractor did not implement system controls to identify
                    multiple disbursements to a single damaged residence address and follow the
10
     The State agreed with our results during the February 12, 2009, update meeting.

                                                           9
                                                             
          State’s policy when processing multiple disbursements for single damaged
          residence addresses, there are potential issues related to another 117 grants.
          Therefore, the State must review the 117 grants, which total more than $3.9
          million, to determine eligibility, as those disbursements are questionable. Further,
          the State must repay funds disbursed for ineligible grants and support or repay
          funds disbursed for unsupported grants.


Recommendations



          We recommend that HUD’s General Deputy Assistant Secretary for Community
          Planning and Development require the State to

           1A. Repay $294,060 disbursed for three ineligible grants to its Road Home
               program.

           1B. Either support or repay $441,027 disbursed for five unsupported grants.

           1C. Review all of the 117 grants related to multiple disbursements for
               58 damaged residence addresses to determine eligibility.




                                           10
                                             
                         SCOPE AND METHODOLOGY

We conducted our audit at the State’s Office of Community Development, Disaster Recovery
Unit; the State’s contractor’s offices in Baton Rouge, Louisiana; and the HUD Office of
Inspector General (OIG) office in New Orleans, Louisiana. We performed our audit work
between July 2008 and February 2009.

To accomplish our objectives, we used the electronic data received from the State’s contractor’s
management information system to identify potentially ineligible grants. Comprised of different
databases combined into a central data warehouse, the management information system,
developed and maintained by the State’s contractor, principally supports the Road Home
homeowner assistance program. Based on the data, a total of 117,613 Road Home grants were
funded between June 12, 2006, and September 18, 2008. We sorted the data for the 117,613
grants to identify addresses that received two or more grants. Of the 117,613 grants, we
identified 401 records that indicated addresses with two or more grants. Of the 401 records, we
determined that only 139 records had grants amounts greater than zero. Through analysis, we
determined that the 139 grants were related to 69 addresses that received two or more grants.
We totaled the grant amounts disbursed to each of the 69 addresses to identify our universe of 11
addresses that received grants in excess of the $150,000 grant limit, for a total of 22 grants.

We selected all 22 grants for file review. We reviewed the documentation for each file to
determine whether the grant applicant met the State’s eligibility requirements as established in
prevailing policies and whether grant and funding information was accurate. Through our file
reviews, we determined that the grant data were generally reliable.

In addition to data analyses and file reviews, we

•   Interviewed State officials as well as key personnel of the State’s contractor;

•   Reviewed the grant agreements between HUD and the State, the Road Home written policies
    and procedures, the contract executed between the State and its contractor and amendments,
    the Code of Federal Regulations, waivers, and other applicable legal authorities relevant to
    the CDBG Disaster Recovery Assistance grants; and

•   Reviewed reports issued by the Louisiana legislative auditor’s office.

Our audit period generally covered October 15, 2007, through September 18, 2008. However,
we expanded this period to address the issues related to multiple disbursements to single property
addresses. We conducted the audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                11
                                                     
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following controls are achieved:

   •   Program operations,
   •   Relevance and reliability of information,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding of assets and resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. They include the processes and procedures for planning,
organizing, directing, and controlling program operations as well as the systems for measuring,
reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined that the following internal controls were relevant to our audit
              objective:

                  •   Program operations - Policies and procedures that management has
                      implemented to reasonably ensure that persons are eligible to participate in
                      the Road Home program.
                  •   Validity and reliability of data - Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data within
                      the management information system are obtained, maintained, and fairly
                      disclosed in reports.
                  •   Compliance with laws and regulations - Policies and procedures that
                      management has implemented to reasonably ensure that CDBG disaster
                      fund use is consistent with HUD’s laws and regulations.
                  •   Safeguarding resources - Policies and procedures that management has
                      implemented to reasonably ensure that CDBG disaster funds are
                      safeguarded against waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.

 Significant Weakness
              Based on our review, we did not identify any significant weaknesses.

                                               12
                                                  
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS



                  Recommendation             Ineligible 1/   Unsupported
                         number                                       2/
                                 1A               $294,060

                                 1B                              $441,027



1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             13
                                               
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         14
                           
Comment 1




Comment 2




            15
              
Comment 3




Comment 4




Comment 5




            16
              
17
  
                         OIG Evaluation of Auditee Comments

Comment 1   The State concurred that three grants are ineligible and five are not sufficiently
            supported. For the three ineligible grants, two applicants did not own or occupy
            the property at the time of Hurricane Katrina and were, therefore, ineligible, and
            for the third ineligible grant, the funds were disbursed to two separate applicants
            for a double-unit (duplex) structure with one tax parcel. The State noted that for
            the two applicants who did not own or occupy the property at the time of the
            storm, the contractor, in March 2008, identified these two grants for special
            review and grant recovery as evidenced in JIRA, an issue-tracking system. The
            State further noted that grants in which applicants are suspected of wrongdoing,
            such as providing false information to the program, are identified as special
            review files and are further investigated by the contractor’s Compliance and Anti-
            Fraud, Waste, and Abuse Unit. As the result of the State’s special review, both of
            these grants were referred to the HUD OIG Office of Investigation.

            We acknowledge the action taken by the State on these grants. However, we
            disagree that two grants were referred to the HUD OIG Office of Investigation.
            Based upon documentation provided by the State’s contractor, only one of three
            ineligible grants was referred to the Office of Investigation, as it was for one
            property. In our review, we identified three ineligible grants for three different
            properties.

Comment 2   The State did not concur that it did not ensure that the contractor had system
            controls to identify multiple disbursements to a single property address. The State
            claimed that controls and analytical procedures had been in place since the
            beginning of the program to identify multiple grant applications submitted for the
            same property address. Specific analytics to prevent and detect applicant fraud
            were developed by a subcontractor specializing in forensic accounting. A specific
            analytic referred to as Routine 1.1 was developed to identify multiple grant
            applications for the same address. The results of Routine 1.1, as well as the
            results of many other analytic tests, were presented to the State every two weeks.
            The State further claimed that its contractor coupled its in-house Compliance and
            Anti-Fraud, Waste, and Abuse Unit with the forensic accounting subcontractor to
            analyze and perform follow-up research on those applications identified as
            potential duplicates. Routine 1.1 identified about 2,289 outlier applications for
            follow-up research and other due diligence. Two of the three grants identified by
            OIG as ineligible in this audit report were detected through this process and
            presented to the OIG Office of Investigation for possible criminal prosecution.

            Based on documentation provided by the State’s contractor, we were unable to
            confirm that the subcontractor conducted analytics specifically to identify
            multiple grant applications for the same address. The task order provided by the
            State’s contractor only included a general statement that antifraud procedures and
            controls would be monitored and tested. In addition, there was no reference in the
            provided documentation regarding testing for multiple grant applications to the

                                             18
                                               
            same address. We were also unable to confirm the results of the subcontractor’s
            Routine 1.1. Additionally, based on documentation provided by the State’s
            contractor, only one of three ineligible grants was identified and referred to the
            HUD OIG Office of Investigation. See comment 1 for more information. Thus,
            we stand by our original conclusion that the State did not ensure that the
            contractor had system controls to identify multiple disbursements to a single
            property address.

Comment 3   In response to recommendation 1A., the State claimed that it is premature to
            require the State to repay the $294,060 at this point in the program. Two of the
            three ineligible grants have been referred to the HUD OIG Office of Investigation
            for possible criminal prosecution, and recovery of the funds disbursed for these
            two grants may result from those proceedings. The State further noted that the
            ineligible grants have not been through the State’s recapture process, which is
            designed to recover overpayments to applicants. The State calculated the amount
            disbursed for the three ineligible grants to be $290,590, not $294,060 as stated in
            the audit report.

            We were unable to confirm the State’s calculation of $290,590. Based on
            documentation located in the management information system at the time of our
            review, the amount disbursed for the three ineligible grants was $294,060.
            Additionally, based on documentation provided by the State’s contractor, only
            one of three ineligible grants was identified and referred to the HUD OIG Office
            of Investigation. See comments 1 and 2 for more information. Therefore, we did
            not change our recommendation that the State repay $294,060 disbursed for three
            ineligible grants.

Comment 4   In response to recommendation 1B, the State contended that two of the five
            unsupported grants have now been supported and determined to have closed for
            the correct amount so no grant recovery is needed. For the remaining three
            grants, it has been determined that a recovery totaling $149,751 is needed for two
            of the grants, and the amount of recovery, if any, for the third grant has not yet
            been determined. Recovery of the grant overpayments will be sought through the
            recapture process.

            Because the State did not provide documentation for the two grants, we were
            unable to confirm the State’s assertion. We were also unable to confirm the
            State’s calculation of $149,751 for three grants. Therefore, we did not change our
            recommendation that the State support or repay $441,027 disbursed for five
            unsupported grants.

Comment 5   In response to recommendation 1C, the State noted that it and its contractor had
            begun the process of reviewing all of the 117 grants. The preliminary review
            revealed that only six grants have been found to be ineligible; two are ineligible
            due to duplicate address issues and the remaining four for ownership issues.
            Further, documentation is needed for eight grants to determine program

                                             19
                                               
eligibility. The remaining 103 grants were determined to be program eligible.
This review will be finalized in the near future.

We acknowledge the State’s prompt preliminary review of the remaining 117
questionable grants. However, because the review of the 117 grants has not been
finalized, we did not change our recommendation that the State review all of the
117 grants related to multiple disbursements for 58 damaged residence addresses
to determine eligibility.




                                20
                                  
